U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 5, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Walker v. English, No. 19-52
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 8, 2019.
The government’s response is now due, after one extension, on September 6, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 4, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0052
WALKER, ALFRED J.
N.C. ENGLISH, WARDEN

ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
ROMAN.MARTINEZ@LW.COM
ANNIE M. WILSON
LATHAM & WATKINS LLP
330 NORTH WABASH AVE.
SUITE 2800
CHICAGO, IL 60611
312-876-7700

